  Peace Corps
  Office of Inspector General




         Coastline in Portland, Jamaica




Final Program Evaluation Report:
       Peace Corps/Jamaica
           IG-11-03-E
                                          February 2011
                           EXECUTIVE SUMMARY

Over 3,500 Peace Corps Volunteers have served the people of Jamaica since the program
was launched in 1962. The program underwent programming changes in 2010, and there
are currently two project sectors in Jamaica: (1) green initiative and (2) youth as promise.
There are also two youth-related projects for Peace Corps Response Volunteers (PCRVs):
(1) sexual and reproductive health and (2) youth and sports. At the onset of this
evaluation, 79 Volunteers were serving in Jamaica, including 13 PCRVs.

Since 2009, PC/Jamaica (hereafter referred to as “the post”) experienced leadership and
programming changes that significantly impacted the stability of the country program. In
the past two years, the post had at least four permanent or temporary staff members
serving in the country director position. The previous country director served in the
position from February 2009 until her sudden, unplanned departure in May 2010. Staff
morale declined under her leadership as she initiated and implemented organizational and
programming changes that were not carried out in a participatory manner or supported by
staff or Volunteers. Under her direction, the post closed its health project. This decision
was made without the input of project partners, staff, and Volunteers, and there is no data
to support the project closure. These programming modifications resulted in changes to
the post’s organizational structure, and the resulting staff departures were not handled in
a respectful, professional manner.

Increases in the post’s PEPFAR program were not well-planned or well-implemented.
The previous country director advocated for a significant increase in the amount of
funding received from the President’s Emergency Plan for AIDS Relief (PEPFAR),
which increased from $50,000 to $500,000. However, the post was unable to develop a
feasible budget to support the $500,000 funding level. The post did not secure the
resources necessary to implement PEPFAR, and the safety and security coordinator
(SSC) assumed programming responsibilities in addition to safety and security-related
duties. This diverted important resources away from Volunteer safety and security in
Jamaica, where there is a high crime rate. In addition, the post did not integrate
HIV/AIDS into its programming, and most Volunteers interviewed as part of the
evaluation were not involved in HIV/AIDS related activities.

The Peace Corps Response (PCR) program was not well planned or implemented. The
post developed two new youth-related PCR programs under the direction of the previous
country director. However, most programming staff members were excluded from
assisting with the PCR program. Many PCRVs were unhappy with their sites because
they did not have specific job assignments that could achieve measureable outcomes in a
short timeframe, which is a basic element of PCR programming. In addition, some of the
PCR work assignments did not match the expectations set during recruitment and
orientation.




Final Program Evaluation Report: Peace Corps/Jamaica                                       i
We found that, not only did the programming changes related to the health project,
PEPFAR, and PCR negatively impact staff morale, they also impacted the Volunteers’
satisfaction with their service in Jamaica. The health project was closed after Volunteers
had been recruited and trained so Volunteers received inaccurate descriptions of their
assignments and were unfamiliar with their project plan goals. The staff did not have
time to incorporate the project changes into pre-service training (PST), which also left
some Volunteers inadequately prepared to carry out the technical aspects of their
assignments.

In addition to the challenges created by numerous programming changes, we found that
many Volunteers struggled to integrate culturally and find meaningful, sustainable work.
Volunteers stated that they were doing jobs that should be done by Jamaicans, were not
able to transfer skills to host country nationals, or were concerned that their roles as grant
writers made partner organizations too dependent on Peace Corps funding. Some
Volunteers were frustrated with programming staff support, particularly the staff’s lack of
discretion and professionalism; ineffective site visits; and infrequent, unhelpful Volunteer
Reporting Form (VRF) feedback. These concerns have resulted in a high number of site
changes and Volunteer resignations.

One area where the post excels is providing safety and security support to Volunteers.
The post has a high-performing SSC who is trusted by Volunteers. Volunteers and staff
are well-prepared for emergencies, and the post is prepared to respond if a crime occurs
against a Volunteer. According to documentation from the Office of Safety and Security,
the post has “implemented effective security protocols that have resulted in a 50 percent
reduction in crimes against Volunteers in the past 5 years, in spite of a steady increase in
the national crime rate during that time.” We commend the post and Volunteers for their
strong focus on this critical aspect of post operations.

Our report contains 16 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Jamaica                                        ii
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................ i

HOST COUNTRY BACKGROUND ......................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND........................................................................... 1

EVALUATION RESULTS ....................................................................................................... 3
          PROGRAMMING ................................................................................................................................. 3

          PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF ....................................................................... 13

          MANAGEMENT CONTROLS .............................................................................................................. 15

          VOLUNTEER SUPPORT ..................................................................................................................... 18

          TRAINING ........................................................................................................................................ 26


OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................... 29

INTERVIEWS CONDUCTED ................................................................................................ 30

LIST OF RECOMMENDATIONS .......................................................................................... 34

APPENDIX A: THE TEN PEACE CORPS PROJECT CRITERIA ........................................... 36

APPENDIX B: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT .................. 39

APPENDIX C: OIG COMMENTS........................................................................................ 46

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ................... 50




 
                       HOST COUNTRY BACKGROUND

Jamaica is a small island nation in the Caribbean Sea that is home to approximately 2.8
million people, the majority of whom are of African origin. It is the third largest
Caribbean island and is located approximately 90 miles south of Cuba. It is 146 miles
long and 45 miles wide at its widest, with 635 miles of coastline.

The island was first inhabited by the Taino Indians prior to the arrival of Christopher
Columbus in 1494. The island was then colonized by the Spanish until the British
displaced them in 1655 and established a plantation economy based on sugar, cocoa, and
coffee. Jamaica gained its independence from Britain in 1962 and remains a member of
the Commonwealth of British affiliates and former colonies. Jamaica’s official head of
state is the queen of England and a freely elected prime minister serves as the local
government head. Jamaica is an English-speaking country; however, most Jamaicans
speak Patois, a dialect derived from several languages, including English.

Jamaica faces large-scale unemployment and underemployment. The economy is heavily
dependent on services, which account for more than 60 percent of the country’s gross
domestic product (GDP). The country derives most of its foreign exchange from
remittances, bauxite/alumina, and tourism. Tourism revenues account for 20 percent of
GDP. Jamaica is also used as a transshipment point for cocaine from South America to
North America and Europe, and there is illicit cultivation and consumption of cannabis.
Corruption is a major concern, and there is substantial money-laundering activity.

Jamaica is listed as "high human development" in the 2010 United Nations Human
Development Report. 1 In 2003, the literacy rate was reported to be 87.9 percent. The
HIV/AIDS prevalence rate was reported to be 1.6 percent in 2007. The country’s
environmental issues include heavy rates of deforestation; coastal waters polluted by
industrial waste, sewage, and oil spills; damage to coral reefs; and air pollution in
Kingston, the capital city, due to vehicle emissions.



               PEACE CORPS PROGRAM BACKGROUND

The first Peace Corps Volunteers arrived in Jamaica on June 12, 1962. More than 3,500
Volunteers have served in the country since that time. The program has undergone
several significant changes since it began in 1962. Initially, Volunteers worked in cities,
towns, and the countryside as teachers, agricultural extensionists, health educators, and
rural development workers. In the mid-1970s, Volunteers were assigned to schools,
1
  The Human Development Report publishes an annual Human Development Index (HDI). The HDI
provides a composite measure of three basic dimensions of human development: health, education and
income. Countries receive a ranking that ranges from “very high human development” to “low human
development” based on related data.


Final Program Evaluation Report: Peace Corps/Jamaica                                                 1
hospitals, health clinics, and other government ministry offices as teachers, nurses, and
loan officers. Over time, Volunteers began working to conserve natural resources,
promote hygiene and healthy living, help fight the HIV/AIDS pandemic, promote
information technology and small business, and help youth gain the skills and education
they need for their future.

The post is currently undergoing programming changes that began in 2009 under the
direction of the previous country director who left the post in May 2010. Before these
changes were implemented, Volunteers were assigned to one of three sectors: youth as
promise, community environmental health (hereafter referred to as the health project),
and environmental awareness. In 2010, the post closed the health project and
consolidated programming into two projects, the green initiative and youth as promise.
On May 21, 2010, 38 trainees assigned to the green initiative and youth as promise
projects swore in and became training group 81 (Group 81). More detailed explanations
of the two project areas are discussed below:

   • Green Initiative
   Volunteers serving in the green initiative project are placed in assignments that aim to
   increase the level of environmental knowledge in schools and communities, address
   food security issues through improved environmentally friendly agricultural practices,
   initiate eco-friendly income generation activities, and build the capacity of local
   organizations to effectively manage themselves.

   • Youth As Promise
   The post partners with the Ministry of Education’s Guidance and Counseling Unit
   and Education Transformation Project. Youth as promise Volunteers support schools
   by working in partnership with regional literacy specialists to strengthen literacy
   programs; provide training and technical support to teachers to help them integrate
   information and education technology into the school curriculum and management;
   and strengthen school peer education, HIV/AIDS prevention, life skills education and
   parent outreach programs. A smaller number of Volunteers work with non-
   government and community based agencies involved in alternative education
   programs and community multimedia centers, primarily in rural, remote communities
   and small towns.

In addition to the Volunteers who serve a standard 27-month term, 13 PCRVs began
serving in August 2010. These Volunteers were recruited to serve in two areas, sexual
and reproductive health, and youth and sports. These projects are described below:

   • Sexual and Reproductive Health
   This project educates youth, promotes behavioral change, and supports organizations
   in reinforcing methods that reduce the high incidence of teenage sexual activity and
   increase the incidence of safe sex.




Final Program Evaluation Report: Peace Corps/Jamaica                                        2
   • Youth and Sports
   This project utilizes sports as a vehicle to empower at-risk boys through life skills
   lessons embedded in sports programs.

Many of these programming changes were initiated by the previous country director who
relinquished her position in May 2010. Her departure was unplanned. A replacement
country director arrived in August 2010.

In total, there were 79 Volunteers serving in Jamaica at the onset of this evaluation.
Volunteers were placed in a mix of rural communities, small towns, peri-urban centers,
and in and around tourist cities.



                           EVALUATION RESULTS

PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented
programs intended to increase the capacity of host country communities to meet their
own technical needs. To determine this, we analyzed the following:

   •   the coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
   •   whether post is meeting its project objectives;
   •   counterpart selection and quality of counterpart relationships with Volunteers;
   •   site development policies and practices.

In reviewing the post’s grant programs, the evaluation found evidence that the Small
Project Assistance (SPA) and Peace Corps Partnership Program (PCPP) programs had
not been well-managed, but the post was already taking steps to address the related
issues. Post staff was working with headquarters staff to improve oversight of these grant
programs. The post’s SPA committee membership had changed to include more staff
members, and staff was increasing its oversight responsibilities of both SPA and PCPP
grants.

Project changes were not supported by staff or properly communicated to Volunteers.

The previous country director initiated significant programming changes upon her arrival
in February 2009. Under her direction, the post closed its health sector and moved
Volunteers into the remaining projects; health education Volunteers working in schools
were assigned to the youth sector, and Volunteers with construction and engineering
skills were assigned to a health infrastructure track within the green initiative project.
The post also launched two Peace Corps Response pilot programs – sexual and
reproductive health and youth and sports – in an attempt to grow the youth as promise
sector.


Final Program Evaluation Report: Peace Corps/Jamaica                                       3
Two of Peace Corps’ Programming and Training Guidance booklets – “Introduction and
Overview” and “Project Design and Evaluation” – provide guidance for reviewing and
revising project plans. These guides encourage the post to use a participatory process
when revising its project plans. According to the “Project Design and Evaluation”
booklet, “The [associate Peace Corps director] (APCD)/PM manages the review and
analysis process, with input from the PTO, CD, the project advisory committee, and the
training manager.” In addition, the host country government, existing and potential
partners, communities, staff, and Volunteers should be involved in the analysis process.

However, the post’s project revision process diverged from this guidance. Headquarters
and post staff stated that PC/Jamaica’s project plan changes were initiated and led by the
previous country director, not the APCDs, and were not supported by staff. There was no
evidence that the post worked with ministry officials, Volunteers, and community
members when revising the project plans and deciding to close the health sector.
According Inter-America and Pacific Region (IAP) headquarters staff, they raised
concerns about the proposed project plan changes, but the previous country director
implemented them before receiving final approval.

Peace Corps’ Programming and Training guides briefly mention project closures. The
“Project Design and Evaluation” guide states:

       A project may be closed out for a variety of reasons, including successful adoption of
       project activities by the country, completion of project major objectives, evolving host
       country priorities, or suspension or closing of a Peace Corps program in a country. When
       projects are closed out, APCD/PMs should create a detailed close-out report and
       electronic files.

There was no evidence that any of the factors that would warrant a project closure were
present in Jamaica. In fact, the decision to close the health project contradicted the
results of a 2009 impact study conducted by the Office of Strategic Information,
Research, and Planning (OSIRP). There were some indications that the project needed
improvements, and the study found that there was “a lack of motivation among
community members and political leaders to continue Volunteers' work.” However, the
study also found that, as a result of project activities, changes in sanitation practices
occurred, service quality improved, capacity building was sustained, Volunteers were
satisfied with their Peace Corps work, and community members developed more positive
opinions of Americans.

Specialists in the Office of Programming and Training Support (OPATS) who were
familiar with the health project were also surprised by the post’s decision to close the
health project because the information submitted in previous project status reviews
reflected a well-functioning project. Staff stated that even though there were indications
that the project needed to be revised, there was no evidence that the project needed to be
closed. Because a thorough, participatory process was not used, post staff was confused
about the rationale for the changes made to the health and youth as promise projects and




Final Program Evaluation Report: Peace Corps/Jamaica                                              4
questioned the motives behind the modifications. As a result, some staff at post did not
support the new programming direction.

Because programming changes occurred after Volunteers had been recruited under the
old project frameworks, Volunteers received inaccurate assignment descriptions and were
unfamiliar with their project plan goals. Overall, 35 percent (7 of 20) of the interviewed
Volunteers were not familiar with the goals of their project plan. But Volunteers who
were previously assigned to the health sector, and the Volunteers from Group 80, who
were already serving when the project plan changes were made, were less familiar with
their project plan goals.

                 Table 1: Volunteer Familiarity with Project Plan Goals
                                  Percent of Volunteers
                                                                  Average
                               Unfamiliar with Project Plan
                                                2                  Rating
                                          Goals
            All interviewed
                                           35%                      3.3
            Volunteers
            Group 80                       50%                      3.3
            Group 81                       13%                      3.5
                   3
            Health                         57%                      2.9
          Source: OIG Volunteer Interviews, 2010

Furthermore, 58 percent (11 of 19) of the interviewed Volunteers stated that the project
description they received before arriving did not accurately describe their assignment. 4
Some Volunteers’ assignments changed after they had been recruited and trained, leaving
them inadequately prepared to carry out the technical elements of their assignment (see
the Training section of this report for more information). The instability that resulted
from the project changes also likely impacted the success of the PCR pilot projects,
which is discussed in more detail later in the “Programming” section.

Although some OPATS guidance mentions project closures, we determined that the
agency does not have a formal process posts should follow when they assess whether
they should close a project and communicate the decision to key stakeholders. Under
current guidance, posts are not required to obtain regional approval, consult OPATS
specialists, or present a data-driven case for the decision using key data indicators such as
Volunteer survey responses, early terminations and Volunteer resignations, and project
impacts.

Headquarters and post staff stated that the post will focus on clarifying its projects and
obtaining staff and stakeholder buy-in on the changes before receiving the next Volunteer
input. We concur that project clarification is necessary, especially before increasing the
number of Volunteers serving in Jamaica.

2
  Represents the percent of Volunteers who rated their familiarity with their project plan goals and
objectives as “not at all familiar” and “not very familiar.”
3
  Represents ratings from Volunteers who were previously assigned to the health project.
4
  One Volunteer in the sample did not provide a rating.


Final Program Evaluation Report: Peace Corps/Jamaica                                                   5
               We recommend:

                 1. That the post work with the region, the Office of
                    Programming and Training Support, and other
                    specialists as needed, to review and finalize its
                    project plans.

                 2. That the Office of Global Operations, in
                    consultation with appropriate offices, develop and
                    communicate the guidelines to posts for
                    discontinuing a project or sector, including the
                    process and criteria used to make such decisions,
                    and the process and timeline to communicate
                    decisions to staff, project partners, and
                    Volunteers.


Volunteers raised concerns about the sustainability of their work.

Project sustainability over time is an important component of every Volunteer’s
assignment. The Volunteers included in our interviews stated that they have difficulty
achieving this goal. This confirms data from the 2010 Annual Volunteer Survey (AVS)
in which 72 percent of PC/Jamaica Volunteers were satisfied with their ability to transfer
knowledge and skills to counterparts and community members, lower than the global
average of 85 percent.

Peace Corps’ Programming and Training Guidance “Introduction and Overview” lists 10
Peace Corps project criteria that all projects are designed to meet. Three of them are as
follows (see Appendix A for the complete list):

   •   Seeks sustainable results that complement other development efforts.
   •   Has local participants as partners in designing, implementing, monitoring and
       evaluating the project.
   •   Does not displace qualified and available workers with Volunteers.

The project plans for both the green initiative and youth as promise projects reflect
strategies for sustainability. However, 70 percent of the interviewed Volunteers (14 of
20) stated that they struggle to participate in sustainable work. Some Volunteers’ stated
that their counterparts and community members do not want to work with them, and they
do not always feel their work is appreciated. Other Volunteers stated that they are doing
work that could be done by Jamaicans. Some Volunteers also stated that they do not
work alongside host country nationals. This is particularly true for Volunteers who are
working in schools and do not partner with other teachers, which limits their ability to
transfer skills to host country nationals. Volunteer comments reflect these challenges:




Final Program Evaluation Report: Peace Corps/Jamaica                                     6
       “A challenge [is the] brick wall of indifference from counterparts and organizations. It's
       common to hear counterparts express that they haven't asked for a Volunteer or if they
       did they asked for a specific purpose like a secretary or office role.”

       “I … am doing the work of another teacher. They could hire someone to take my place.
       I'm doing the job a Jamaican could be doing.”

       “It's not sustainable. We pull out kids from their classroom where the teachers are
       .…We're either seen as someone who can do paperwork or we take students out and work
       with a child alone. I feel like I'm doing the job of a Jamaican.”

       “We're doing the job Jamaicans are doing .… we're not creating anything
       sustainable...This is a violent, dangerous country and there's not a lot of respect for what
       we're doing by host country nationals.”

Volunteers were also concerned about the sustainability of their roles as grant-writers.
Volunteers stated that they struggled with the perception by their counterparts and
communities that they are a source of money, and they worry that the dependence on
Volunteers to secure funding conflicts with the agency’s sustainability goals. Volunteer
comments included the following:

       “[My organization] wanted me to write projects and grants and get them money. They
       didn't have anything for me to do except get them money.”

       “Jamaica is a semi-developed country so it's difficult for us. We're not trained as doctors.
       We end up being a grant writer or having an office role. And there's also a culture of
       expectancy…They view Volunteers as grant writers.”

       “Because Jamaica is so grant-dependent it's really frustrating for us to be expected to
       pound out grants.”

       “I'm constantly in the office writing grants. It's not sustainable. Who's going to do all of
       this when I leave?”

This expectation that Peace Corps can provide money to Jamaican ministries and
partner organizations was reflected in our discussions with ministry officials. In
conversations with OIG, officials from two of the ministries stated that they need
Volunteers to help address their funding challenges, and one asked if Peace Corps
could provide money for the ministry.

                We recommend:

                  3. That the post work with ministry and project
                     partners to clarify and establish appropriate
                     expectations regarding Volunteer roles as grant
                     writers and other sources of income, and that it
                     address this clearly during site development.




Final Program Evaluation Report: Peace Corps/Jamaica                                                  7
The post has challenges placing Volunteers in sites where they can thrive
programmatically, physically, and emotionally.

Selecting the proper site is critical to Volunteer effectiveness. “Characteristics and
Strategies of a High Performing Post” states, “There are probably no greater ingredients
for a Volunteer’s success than the viability of the assignment and the safety and security
of the Volunteer’s living and working conditions.” The guidance encourages the post to
involve multiple units, including programming, training, health, safety and security, and
administration, to place Volunteers in sites where they can be effective.

The post made improvements to its site development process and began implementing
some of the changes in May 2010 with Group 81 Volunteers. Under the new site
development process, staff and Volunteers evaluated potential sites and ranked them
according to such factors as the safety and security of the area, the availability of good
housing, and strength of the partner organization. Staff from the programming, medical,
and safety and security units provided input when matching Volunteers with potential
sites. However, there were other elements of the new site development process such as
community meetings and additional site checks that staff was unable to completely
implement due to the numerous programming and staff changes being implemented.

Despite implementing some changes intended to improve site development, Volunteers
reported dissatisfaction with their initial site placements. This confirms data from the
2010 AVS survey in which 56 percent of Volunteers in Jamaica were satisfied with staff
support for site selection/preparation, lower than the global average of 73 percent. In
interviews, some Volunteers stated that the post did not set the right expectations with
communities and partner organizations, and they were not placed in sites where there was
enough work to do. Only 45 percent (9 of 20) of the interviewed Volunteers stated that
they had enough work to do “most of the time” or “always.” Volunteers also experienced
problems with the housing or host family that should have been noted and fixed by staff
during the site development process. For example, Volunteers were placed in homes that
had too many occupants or in houses where crimes had occurred.

In addition, Volunteers reported that they struggled to integrate culturally. Many
Volunteers were placed in urban sites in and around tourist cities where they were often
mistaken for tourists. Although counterparts were expected to help Volunteers integrate,
Volunteers were not always housed in the same community as their workplace
counterpart. This limited their ability to help the Volunteer integrate. Both post and
headquarters stated that Jamaica’s culture is often difficult for Volunteers because of its
aggressiveness and mistrust of foreigners. This makes it very important that Volunteer
sites are well-developed and proper expectations are set with Volunteers, counterparts,
and community members.

Even though the post has a well-developed site development and site matching process,
site placements at the post are complicated by several factors. First, even though the post
only has two project plans, Volunteers are actually working in a wide variety of project



Final Program Evaluation Report: Peace Corps/Jamaica                                         8
sectors, including environment, agriculture, youth development, health, literacy, and
numeracy. Staff needs to match Volunteers’ skills and backgrounds with community
needs, and the large variety of Volunteer assignments makes this challenging. The post
also takes into consideration Volunteer preferences, which can be strong. Some
Volunteers arrive in Jamaica expecting to be placed in rural communities and are
dissatisfied if they are placed in an urban environment. Finally, the post receives
Volunteers who are medically accommodated; 45 percent of the Volunteers serving in
Jamaica at the time of this evaluation were medically accommodated. 5 Some of these
medical accommodations impact site development because post staff must place
Volunteers in sites where their physical and emotional needs can be met. 6

The post has experienced numerous housing and site changes as a result of the cultural
and work-related frustrations Volunteers face in their sites; 30 percent of the interviewed
Volunteers had changed sites, and even more Volunteers had to change housing. Not
only does this create additional work for the staff, but it can also jeopardize Peace Corps’
relationship with communities and partner organizations who may come to believe that
the Peace Corps is not committed to assisting their community.

Volunteers’ dissatisfaction with their sites has also resulted in Volunteer resignations.
Data from 2005-2010 shows that Volunteer resignation rates at the post have been higher
than global and regional averages. Some of these resignations can be attributed to
Volunteers’ dissatisfaction with their site placements. One Volunteer commented, “Once
you decide that you're not doing anything and you can't integrate, that's when people ET
[early terminate]. If I'm not being sustainable or making friends, what's the impact?”

Because there are many factors that create site development challenges in Jamaica,
including unfocused programming, poorly managed programming changes, and difficult
cultural integration, numerous changes need to be made to improve site development and
reduce the number of site changes and Volunteer resignations. The following
recommendation is intended to work in conjunction with the other recommendations
included in this report to improve the quality of site development.

                 We recommend:

                   4. That the post review current site development
                      processes and staff roles and implement an
                      improved site development process.




5
 The term “medically accommodated” refers to Volunteers with special medical or site placement needs.
6
 Not all medical accommodations impact a Volunteer’s site placement. The Office of Volunteer Support
was unable to provide data on the percent of currently-serving Volunteers in Jamaica who had a site-
specific medical accommodation.


Final Program Evaluation Report: Peace Corps/Jamaica                                                    9
The Peace Corps Response program was not well implemented in PC/Jamaica.

PCR provides opportunities for Returned Peace Corps Volunteers to undertake short-term
assignments that average six months in duration. At the time of the evaluation, 13 Peace
Corps Response Volunteers were serving in Jamaica in two projects – 1) sexual and
reproductive health and 2) youth and sports. These assignments were designed as pilot
projects to help the post expand its youth as promise project. In addition to completing
their own project work, the post envisioned that the Response Volunteers would conduct
research and help staff identify sites that could be served by 27-month Volunteers.

The PCRVs we interviewed raised concerns about the PCR program. One of the PCR
project criterion is that projects have identified and measurable deliverables and
outcomes. However, PCRVs in Jamaica stated that they did not have specific job
assignments that could achieve measurable outcomes in the short timeframe they were
serving. Instead, they were assigned to sites that they considered more appropriate for
Volunteers serving full 27 month assignments. Consequently, the PCRVs struggled to
define their assignments, which should have been done before their arrival, and
implement project activities in a short timeframe. One PCRV stated:

       “I really think that Peace Corps in Jamaica needs to know the difference between a
       Volunteer and a Peace Corps Response Volunteer…The only thing they can say is
       different right now is the six month timeframe…We come to do a specific job but that's
       not the case here.”

The PCR assignments created frustration for both the PCRVs and the 27-month
Volunteers, particularly those in the health sector who could not understand why their
project was closed while the post continued to place Response Volunteers in HIV/AIDS
and sexual and reproductive health assignments that were suitable for 27-month
Volunteers. One 27-month Volunteer stated:

       “When Peace Corps Response came to the island they were given sites and jobs that
       would have been good for current Volunteers…When I hear of Response Volunteers
       working on HIV/AIDS I get upset. That's what I was supposed to be doing.”

Furthermore, the PCR work assignments did not match the expectations created during
recruitment and orientation. Both of the PCR projects used generalized group project
descriptions that described all the possible activities a Response Volunteer invited to
Jamaica might undertake. Individual job descriptions were not developed for Response
Volunteers based on their specific assignment during the recruitment process. Although
some Peace Corps posts requesting PCRVs use a more generic group job description,
PCR headquarters staff stated that it is rare for such job descriptions to apply to 12 or
more Volunteers, and most are designed to cover just one or two Volunteers.

Despite the general nature of the job descriptions, some PCRVs stated that they were
given specific information about their job assignment during recruitment, such as
teaching high school soccer or conducting field-based research, but they were
subsequently placed in a different assignment. Even though each of these project


Final Program Evaluation Report: Peace Corps/Jamaica                                            10
descriptions stated that the PCRVs were expected to “communicate closely with one
another, forming a highly interactive team,” the Response Volunteers reported that they
were not collaborating with other Volunteers. They also had not worked with staff to
identify potential sites for 27-month Volunteers as envisioned with the pilot program.

PCR headquarters staff reported that they had concerns regarding both the Volunteer
position descriptions and the lack of detailed information the post had provided, but felt
pressured by the previous country director to move forward. Post staff also
acknowledged the difficulties establishing the PCR program. They reported that the
former country director played a significant role launching the PCR pilot programs and
excluded programming staff from planning and site development. When the country
director left the post unexpectedly in May 2010, three months before the Response
Volunteers arrived, the Response Volunteers sites were not yet developed. Programming
staff, who were already heavily engaged in completing a PST for the last Volunteer input
and realigning the green initiative and youth as promise projects, had to rush to complete
site development for the PCRVs. The post was unable to develop sites for 24 PCRVs as
originally planned and subsequently reduced the target number to 14. 7 Site development
and housing selection suffered, and this created dissatisfaction among the PCRVs in
Jamaica.

Post staff stated that they are planning to make improvements for future RPCVs. They
would like to use more traditional PCR job descriptions that are more specific and apply
to a smaller number of Volunteers. They might also decrease the number of PCRVs they
invite at one time in an effort to make the site development process more manageable.

                 We recommend:

                   5. That the post work with the Peace Corps Response
                      office and the region to develop and implement a
                      manageable Peace Corps Response strategy,
                      improve position descriptions for Response
                      Volunteers, and assign Response Volunteers to
                      meaningful short-term assignments.


The post does not engage in regular meetings with ministry partners.

“Characteristics and Strategies of a High Performing Post” encourages posts to have
regular communications with host country government and partner agencies. It states:

        …There is much value to setting up a regular communications network with the
        counterpart agency (ministry, NGO, or community organization), so that consultation,
        exchange, and understanding take place on a steady basis, outside of the realm of special
        problems and crises. This means…some type of regularly scheduled meetings…that will


7
  Only 13 Response Volunteers were serving at the time of the evaluation. The fourteenth person identified
to serve was unable to do so.


Final Program Evaluation Report: Peace Corps/Jamaica                                                   11
       serve to monitor activities and bring participants together to analyze project
       accomplishments and relations.

Overall, ministry officials stated that they are satisfied with Peace Corps Volunteers, and
several representatives expressed an interest in increasing the number of Volunteers. But
they also want to strengthen the relationship with Peace Corps and receive formal
feedback on Volunteer activities and impact. A U.S. Embassy representative concurred
and stated that the post could do a better job coordinating with the Jamaican government.
Comments from ministry officials include the following:

       “We need to tighten the relationship with the office a little. I would like to have periodic
       reports on Volunteer operations and their impact. I would like to have quarterly reports
       and meetings with Peace Corps.”

       “I was part of the orientation program so I know the Volunteers and where they’re
       located. I don’t know how well they’re doing though.”

       “We’d like to get feedback on how [the Volunteers are] contributing.”

Some ministry officials stated that they would like Volunteers with more specialized
skills. In Jamaica, Volunteers are often placed in professional settings and work
alongside counterparts and supervisors who are well-educated and have significant
professional experience. Ministry officials noted that Volunteers are often younger,
generalist Volunteers with limited professional experience. In an effort to receive more
skilled Volunteers, some ministry officials were interested in exploring the opportunities
available through PCR. Sample comments include the following:

       “We need Volunteers with more skills than they have now.”

       “Some work requires specialists. We’re getting generalists. We’re discussing the idea of
       having more specialized people. We’re going on the web to look at Peace Corps
       Response to see the kinds of jobs out there.”

Although Peace Corps staff stated that they communicate with Ministry officials
regularly, the post was not providing regular status reports to them or operating formal
project advisory committees (PACs). Peace Corps’ Programming and Training Guidance
“Project Design and Evaluation” describes the PAC as a team of key project stakeholders
that helps “develop credible, realistic and responsive project plans and training
programs.” One function of an active PAC is to review and evaluate project results each
year. The programming and training guidance recommends that the PAC include
programming and training staff, Volunteers, community members, and government and
partner agency representatives.

Operating PACs at the post could be an ideal way to formalize communications with
ministry officials and project stakeholders and provide a forum to discuss Volunteer
impacts and needed skills. The information generated by such a forum could be valuable
given the current state of project sectors and PCR Volunteer assignments. Post staff
members stated that they are planning to hold PAC meetings in the future.



Final Program Evaluation Report: Peace Corps/Jamaica                                                  12
                We recommend:

                  6. That the post develop and implement a plan to
                     engage in regular, formal meetings with host
                     country government and partner agencies.


PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF

Another objective of this post evaluation is to answer the question “is the post able to
adequately administer the President’s Emergency Plan for AIDS Relief (PEPFAR)
program, support Volunteers, and meet its PEPFAR objectives?” To answer this
question, we evaluate:
    •   Whether the post is implementing its PEPFAR objectives as laid out in the annual
        implementation plan.
    •   Relationships between the post and coordinating partners.
    •   Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling
        related challenges.

Increases in the post’s PEPFAR program were not well-planned or well-implemented.

PEPFAR provides funding to Peace Corps posts to help expand and enhance their
response to the HIV/AIDS epidemic. In 2008, the post received $50,000 in PEPFAR
funding. In 2010, the post requested and received approval for $500,000 in PEPFAR
funding, a 1000 percent increase over its 2008 budget amount. 8

To obtain PEPFAR funding, Peace Corps’ Office of AIDS Relief (OAR) requires posts to
submit an implementation plan that “details the proposed activities that posts will
implement with PEPFAR funds.” While developing the implementation plan, OAR
encourages posts to use the strategic planning process outlined in Peace Corps guidance
“Developing and Implementing Peace Corps Implementation Plans” and integrate
HIV/AIDS activities into their project plans. This process helps guide the post in
carefully considering its budget request and developing a viable implementation strategy.
This careful planning process did not take place in Jamaica. The post struggled to
develop a feasible budget and implementation plan, secure the resources needed to
implement its PEPFAR-related activities, and integrate HIV/AIDS activities into
programming.

Budget and Implementation Planning
Due to changes made by the Department of State’s Office of the Global AIDS
Coordinator (OGAC), the fiscal year (FY) 2010 the budget and implementation planning
process worked differently than that of previous years. Posts received approval for their
proposed budget number before OAR required them to submit an implementation plan

8
 PC/Jamaica’s FY 2010 appropriated budget was $1,810,400. PEPFAR funding is provided in addition to
appropriated money.


Final Program Evaluation Report: Peace Corps/Jamaica                                             13
(IP). The post initially requested $500,000 in PEPFAR funding, which was approved by
the in-country team and OGAC. To begin receiving the funds, OAR required the post to
submit an IP, which was due on June 28, 2010. To date, the post has been unable to
obtain approval for their IP. OAR required the post to submit an IP and budget that
matched the original request for $500,000; however, post staff could only develop a
feasible budget totaling $420,000. According to post staff, there was no record of a plan
or budget that supported the $500,000 request made by the previous country director.

Resources
In addition to the poor budget planning, the post did not secure sufficient staff resources
before implementing PEPFAR-funded activities. The post planned to hire a Peace Corps
Response coordinator to manage PEPFAR-funded PCRVs. However, the funding for this
position was delayed. To manage the workload associated with PEPFAR and PCRVs,
the SSC assumed programming responsibilities for both of these programs in addition to
safety and security-related duties. This diverted important resources away from
Volunteer safety and security in Jamaica, a high crime country that requires full attention
from the SSC. While the shift did not result in negative impacts to Volunteer safety and
security, it created tension between programming and safety and security staff.
Nonetheless, shifting the SSC’s attention from safety and security was risky and could
have led to negative consequences.

At the time of our fieldwork the post had posted a vacancy announcement for a PEPFAR
coordinator who would “manag[e] and provid[e] oversight and support to all Peace Corps
Response Volunteers working in HIV/AIDS prevention capacities.” The post also hired a
Peace Corps Response coordinator in July 2010, and the SSC has resumed her original
position.

Programming Integration
Finally, PEPFAR does not appear to have been well-integrated into programming and
Volunteer activities. Fifty-five percent (11 of 20) of the Volunteers we interviewed were
not involved in any HIV/AIDS activities, and only 15 percent (3 of 20) of interviewed
Volunteers had been involved in HIV/AIDS activities as part of their primary or
secondary activities. Volunteers who were previously assigned to the health sector were
more likely to be involved in HIV/AIDS activities; 71 percent (5 of 7) of the Volunteers
who used to be assigned to the health sector had been involved in some level of
HIV/AIDS activities. However, that project has since been closed. HIV/AIDS is not
mentioned in the green initiative project plan, and only 17 percent (1 of 6) of the
interviewed Volunteers who were originally assigned to that project had been involved in
HIV/AIDS activities. The youth as promise project plan includes the objective “by 2015,
90 Volunteers and their Project Partners will train 25,000 youth in healthy lifestyles
practices and HIV/AIDS prevention.” Despite this, only 33 percent (2 of 6) of the
interviewed Volunteers who were originally assigned to the youth sector have been
involved in HIV/AIDS activities. 9


9
 The calculations for the green initiative and youth as promise projects excluded Volunteers who were
originally assigned to the health sector.


Final Program Evaluation Report: Peace Corps/Jamaica                                                    14
The post has struggled to implement its PEPFAR activities and use the increased funds
because agency managers, including OAR and the IAP region, did not ensure that the
post underwent a thorough planning process that clearly linked PEPFAR to its
programming goals. To ensure the PEPFAR money is not being wasted or used
inappropriately, the post needs to develop a clear, viable strategy before requesting
additional PEPFAR funding.

                We recommend:

                  7. That the post work with the Office of AIDS Relief
                     and the region to develop and implement a
                     manageable President’s Emergency Plan for AIDS
                     Relief strategy.

                  8. That the post, in conjunction with the Office of
                     Programming and Training Support, if needed,
                     integrate HIV/AIDS activities into related project
                     plans.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which
the post’s resources and agency support are effectively aligned with the post's mission
and agency priorities. To address these questions, we assess a number of factors,
including staffing; staff development; office work environment; collecting and reporting
performance data; and the post’s strategic planning and budgeting.

In reviewing the post’s relationship with the U.S. Embassy in Jamaica and with Peace
Corps headquarters offices, OIG found no significant areas of concern that would warrant
action by the post. Post staff members participate in embassy meetings and communicate
on a regular basis while still maintaining the necessary independence of Peace Corps.
Post staff members reported that headquarters staff have been supportive in their
implementation of a new organizational structure, and have helped them address
challenges related to leadership turnover.

Instability in the country director position impacted staff cohesion and office morale.

The CD is a key position at the post and provides program direction and leadership. It is
the CD’s responsibility to develop the post’s vision; oversee staff and Volunteers; foster
open communication with staff, Volunteers, and representatives from the host
government and project partners; and help the post’s multiple units work together and
function as a team in providing Volunteer support. “Characteristics and Strategies of a
High Performing Post” states:

       If the country director can be said to have any responsibility that overrides all others, it is
       to communicate, get along, and work well with staff, and to do everything possible to see


Final Program Evaluation Report: Peace Corps/Jamaica                                                     15
       to it that staff members function in the same way toward each other. This can be done by
       the country director’s own example and through a number of strategies that support and
       facilitate communication, cooperation, and trust between others.

Although the five-year rule makes turnover common at the Peace Corps, the post has had
especially high turnover in the CD position. From 2001-2006 the post had a long-
standing CD. After his departure, CD tenures shortened. In the past two years, the post
had at least four permanent or temporary duty staff members serving in the CD position,
and their tenures were far less than a two and one half year tour.

Changes in leadership often result in changes in a post’s strategy and direction. Under
the previous CD who served from February 2009 to May 2010, the post experienced
significant changes in many areas. Some of these changes positively benefitted the staff,
such as such as advocating for pay increases and making improvements to the physical
office structure. But other changes, particularly to the post’s programming, were not
carried out in a participatory manner and were not supported by all staff members.

Furthermore, some of the programming modifications resulted in changes to the post’s
organizational structure and the staff impacts were not managed well. With the closure
of a program sector, long-standing staff members’ positions became redundant.
Headquarters and post staff stated that the staff departures that resulted from the
organizational changes were not handled in a respectful, professional manner. It was
reported that some of the staff members who lost their jobs were informed by colleagues,
not post leadership. The rationale for the changes was not properly communicated,
which raised job security concerns throughout the office. Some staff viewed the
organizational changes and subsequent staff departures as an attempt to relieve some
people of their duties. As a result, staff reported that they became afraid of suggesting
new ideas or disagreeing with the CD. A few staff members reported that they were
reprimanded by the previous CD for sharing information with headquarters staff. Others
thought that negative information provided to headquarters would result in an immediate
phone call to the CD who would seek retribution.

The previous CD also obscured the distinction between units, particularly programming
and safety and security. Staff reported that the CD excluded programming staff from
participating in typical programming activities, such as site development. In addition, the
SSC assumed responsibility for PEPFAR-related programming even though the
programming unit already employed staff members with relevant skills and experience.

Staff reported that office morale was low and there was tension between units. This can
be primarily attributed to the leadership and decision making style of the previous CD. A
new CD arrived in August 2010, and staff was optimistic that the office environment
would improve. But because of the frequent leadership turnover the post has
experienced, staff was also wary and needed time to re-establish trust and healthy
working relationships with one another. One staff member commented, “The [remaining
staff] haven’t been dealt with. There’s no re-establishment of trust. To get the team back
on track you have to re-establish the team. There’s still a fear of uncertainty.”



Final Program Evaluation Report: Peace Corps/Jamaica                                              16
              We recommend:

                9. That the post and region develop and implement a
                   plan to address the office’s morale and staff
                   communication problems.


The Peace Corps Volunteer Leader was not participating in a substantive Volunteer
activity with an assigned counterpart.

According to the Peace Corps Manual section (MS) 202.3.2, “a Volunteer Leader is first
and foremost a Volunteer… Accordingly, Volunteer Leaders must, in addition to their
special Volunteer Leader services, be involved in at least one substantive Volunteer
program or activity with an assigned counterpart.”

The post has one Peace Corps Volunteer Leader (PCVL) who works in the Peace Corps
office in Kingston, Jamaica. He started working in this capacity on October 13, 2010.
According to the PCVL approval request submitted by the post, the PCVL was
responsible for supporting Volunteers in the green initiative project by assisting with
community entry, peer support, site development, planning and implementing training,
and monitoring and evaluating SPA projects. The approval request also stated that 20
percent of the PCVL’s time would be spent continuing to support his previous Volunteer
assignment by working remotely from Kingston and traveling to the original site when
needed.

The PCVL had only recently started working in the position at the time of the evaluation
fieldwork. Although staff anticipated that the PCVL would continue working with
previous project contacts, that was not yet occurring and there was no plan in place to
ensure the PCVL was undertaking a primary Volunteer assignment with an assigned
counterpart. To comply with the agency’s policy concerning PCVLs, the post needs to
ensure that the PCVL is continuing his Volunteer assignment as documented in the
PCVL approval request.

              We recommend:

                10. That the post develop a position description and
                    responsibilities that assign the Peace Corps
                    Volunteer leader to a Volunteer activity with a
                    counterpart.


Staff performance appraisals were not conducted regularly for all staff.

The Peace Corps Manual provides guidance for employee performance appraisals. For
personal services contractors (PSCs), MS 743.19 states: “It is U.S. Government policy




Final Program Evaluation Report: Peace Corps/Jamaica                                  17
that a PSC's performance be evaluated during and at the completion of each contract . . .
A copy of the evaluation should be maintained by the Country Director.”

At the time of the evaluation, performance appraisals for the 2010 appraisal cycle had not
been completed for all staff members, and a review of personnel files revealed that
appraisals have not been done for most staff on a regular basis. Of the nine personnel
files sampled, seven (78 percent) did not contain performance appraisals for 2009 and
none of the files contained appraisals for 2010. Although most files contained at least
one performance appraisal, there were often gaps in which performance appraisals had
not been conducted for several years.

               We recommend:

                 11. That the post conduct annual and mid-year
                     performance reviews for all staff members in
                     accordance with Peace Corps policy.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided
adequate support and oversight to Volunteers?” To determine this, we assessed
numerous factors, including staff-Volunteer communications; project and status report
feedback; medical support; safety and security support including staff visits to Volunteer
work sites, the Emergency Action Plan (EAP), and the handling of crime incidents; and
the adequacy of the Volunteer living allowance.

Overall, Volunteers reported that they were well-supported by the post. Ninety percent
(18 of 20) of the Volunteers interviewed rated the staff as “effective” or better at helping
them to adjust to life as a Volunteer, with an average rating of 3.7. For overall support,
the average ratings for staff are as follows:




Final Program Evaluation Report: Peace Corps/Jamaica                                      18
                    Table 2: Responses on Perception of Volunteer Support 10
                                   Average         Percent of Volunteers
                   Area           Rating for    rating “average support”
                                   Support               or better
                                        11
             Leadership             N/A                     N/A
             Programming             3.8                   88%
             Training                4.1                    85%
             Safety and
             Security                4.9                   100%
             Medical                 4.3                   100%
             Administrative         N/A11                   N/A
            Source: OIG Volunteer Interviews, 2010

In reviewing the effectiveness of the Volunteer Advisory Committee (VAC), the support
available to Volunteers from diverse backgrounds, the availability of communication
methods between post staff and Volunteers, and the adequacy and timeliness of
Volunteers’ living and settling-in allowances, OIG found no significant areas of concern
that would warrant action by the post.

The post has a functioning and active VAC. Some Volunteers stated that the
effectiveness of the VAC was diminished by the previous CD who was unreceptive to
VAC input and limited the extent to which meeting information could be communicated
to Volunteers. However, Volunteers were hopeful that the VAC would have a better
relationship with the current CD, and 91 percent (10 of 11) of interviewed Volunteers
rated it favorably. 12

Headquarters staff expressed concern that Volunteers from diverse backgrounds,
especially women and homosexual Volunteers, might face challenges and hostilities in
Jamaica. Although the post does not facilitate structured diversity support groups,
Volunteers did not raise significant concerns with support in this area.

Volunteers reported that they are able to reach staff easily via phone and email. The post
uses a closed circuit cell phone network that facilitates communication among staff and
Volunteers, and Internet access is available on a regular basis for many Volunteers.
However, some Volunteers in rural sites would like the post to decrease its reliance on
email when communicating important, time-sensitive information due to their limited
access to email.

10
   The Leadership score was derived from the score for the country director; the Programming score was
derived by averaging the scores for the PTO, APCDs, Peace Corps Response Coordinator, and
Programming and Training Assistants; the Training score was derived from the score for the training
manager; the Safety and Security score was derived from the score for the safety and security coordinator;
the Medical score was derived from the collective Peace Corps Medical Officer scores; the Administrative
score was derived from the score for the administrative officer.
11
   Fewer than five Volunteers provided a rating.
12
   Nine Volunteers in the sample did not provide a rating.


Final Program Evaluation Report: Peace Corps/Jamaica                                                    19
In general, most Volunteers were satisfied with the adequacy and timeliness of their
settling-in and living allowance. However, Volunteers in urban settings stated that the
living allowance is not adequate, particularly because the post requires them to take taxis
to and from work. Volunteers also stated that they would like deposits to their accounts
to be itemized so they can track the receipt of reimbursements.

Some Volunteers do not feel comfortable raising issues with programming staff.

Maintaining good communication between staff and Volunteers is essential in providing
Volunteer support. According to “Characteristics and Strategies of a High Performing
Post”:

       Volunteers need to be motivated to come talk to staff; it usually doesn’t just happen
       naturally (especially coming to the CD). Volunteers will be more likely to do so if they
       feel

           •    Staff are interested, already know something about the Volunteer, want to hear
                about his or her life and concerns, and listen.
           •    What they say won’t backfire, i.e., truths won’t be turned against the Volunteer,
                jokes made, and confidences repeated.
           •    That when they ask for an opinion or propose a new idea, your way of
                responding is helpful or constructive.

Although overall programming staff support ratings were high when the scores for the
PTO, APCDs (including the Peace Corps Response coordinator), and programming and
training assistants were combined, ratings for individual APCDs and the Peace Corps
Response coordinator were lower. In particular, several Volunteers raised concerns with
the way APCDs interact with them and the lack of discretion used by APCDs. Some
Volunteers stated that their APCDs treat them like a burden when they raise concerns,
and they are ineffective in facilitating problem resolution with supervisors and
counterparts. Some typical Volunteer comments included the following:

       “I don't feel supported by [my APCD]. When [my APCD] comes to the community it
       creates problems. [My APCD] shares too much information.”

       “I don't call [my APCD] for support. I feel like I'm being a bother to [my APCD]. [My
       APCD] told me I was making more work for [my APCD].”

       “[The APCDs are] more of a hindrance than a help. It feels like they show up at site to
       reprimand you.”

Some Volunteers also reported that APCDs have spoken to them negatively about other
staff and Volunteers. As a result, some Volunteers are not comfortable raising issues
with the APCDs because they do not trust that their confidentiality will be maintained.
Volunteers also stated that they avoid interacting with staff in an effort to minimize
negative outcomes. Comments from Volunteers demonstrate the effect these actions
have on Volunteer-staff relationships and communications:

       “Many times [my APCD] talked to us about other Volunteers and [staff]. That makes me
       not want to talk to [my APCD]. I won't tell [my APCD] a thing.”


Final Program Evaluation Report: Peace Corps/Jamaica                                                20
       “[My APCD] is really difficult to communicate with…[My APCD] is not my go-to
       person. I can't communicate with [my APCD].”

       “I'm of the opinion that the less interaction I have with staff, the better.”

A couple Volunteers noted that communications with the green initiative APCD have
improved. But staff needs to continue making improvements in an effort to maintain
professional, confidential communications with Volunteers.

                We recommend:

                   12. That the post establish, document, and
                       communicate to staff and Volunteers the
                       expectations for staff-Volunteer communications
                       and requirements for discretion and
                       confidentiality.


Programming site visits lack structure and are often ineffective.

According to post site visit guidelines, each site visit should be several hours in length
and include the following activities, among others:

   •   Meet with Volunteer to discuss scope of work and key issues
   •   Meet with Supervisor/Counterpart to discuss Volunteer performance and
       adjustment
   •   Meet with Volunteer and Supervisor together to discuss progress of assignment,
       achievements, upcoming plans, challenges and issues

Ninety-five percent (19 of 20) of the Volunteers interviewed for this evaluation were
satisfied with the number of site visits they received, but 45 percent (9 of 20) raised
issues with the effectiveness of the visits conducted by programming staff. Volunteers
reported that programming staff do not always notify them of their visits prior to arrival,
and Volunteers are not provided the opportunity to discuss problems and agree on a
strategy with staff one-on-one before meeting with counterparts and supervisors.
Volunteers also stated that programming staff will make commitments to counterparts
and supervisors that the Volunteer is not comfortable implementing. Some typical
Volunteer comments included the following:

       “What's a site visit? I consider it when someone comes in to talk to me face-to-face. Not
       when they stop by for five minutes.… I want 10 minutes of us just one-on-one. Not five
       minutes on a busy street.”

       “[My APCD] will just show up without talking to me. [My APCD] will talk to my
       supervisor and start making promises about what I will do. [My ACPD] will say things I
       have asked [my APCD] not to say.”




Final Program Evaluation Report: Peace Corps/Jamaica                                               21
       “[My APCD] will make promises about things I can do for my school but I don't think I
       have the skills to do. [My APCD] hasn't talked with me about it first. It's hard not being
       on the same page.”

As a result, some Volunteers stated that they prefer not to have many programming site
visits because they can make problems worse for Volunteers. Some typical Volunteer
comments included the following:

       “I wouldn't want more [site visits] because I don't think they'd be effective.”

       “Because of [my APCD’s] interactions with counterparts and supervisors, I've been ok
       with the number [of site visits received]. If I felt [my APCD] was more effective I'd want
       more. It would be nice to have more but I don't want [my APCD] here. It makes things
       more difficult.”

Although the post provided OIG with written site visit guidelines, it does not appear that
these are being followed by programming staff. It is unclear if staff has received a copy
of the guidelines or refer to them when conducting Volunteer site visits. They are not
included in the staff or Volunteer handbooks, and staff did not demonstrate knowledge of
the guidelines.

Programming staff can improve the effectiveness of site visits by notifying Volunteers in
advance, establishing expectations for the site visit, and conferring with Volunteers
before making commitments to counterparts and supervisors.

                We recommend:

                  13. That the post align Volunteer and staff
                      expectations regarding site visits by clarifying and
                      documenting the guidelines and communicating
                      them to staff and Volunteers.

                  14. That programming staff notify Volunteers,
                      counterparts, and project partners in advance of
                      site visits.


Volunteers are not receiving timely, useful report feedback on their Volunteer Report
Forms.

Volunteers at the post are required to submit Volunteer Report Forms (VRFs) three times
per year that detail their work activities. Peace Corps’ Programming and Training
Guidance “Management and Implementation” encourages programming staff to read and
provide timely feedback to each of these periodic reports.




Final Program Evaluation Report: Peace Corps/Jamaica                                                22
Only one of eight interviewed Volunteers who had been in-country longer than six
months reported that they received VRF feedback “most of the time” or “always.” 13 A
review of Volunteers’ files and communication records confirmed that APCDs did not
consistently provide VRF feedback. Staff acknowledged that providing timely feedback
had been a challenge and was an area for improvement.

When Volunteers who had received feedback were asked to rate the quality of the
feedback, 50 percent (10 of 20) rated it favorably, with an average rating of 2.2. 14 Our
review of the written feedback provided to Volunteers revealed variation in the quality of
the feedback. Some APCDs provided substantive comments and suggestions while
others merely sent an email confirming that the report had been received.

As a result of the lack of timely, quality feedback, some Volunteers admitted that they no
longer take the VRF seriously. Instead of using the reports to provide important
information about their project activities, they include outrageous, irrelevant information
in an attempt to elicit a response from staff.

The post has not established clear, documented guidelines concerning the quality,
timeliness, and method of providing VRF feedback, and staff had different perspectives
on the required response time, ranging from two weeks to thirty days. It was reported
that previous post leadership had even instructed APCDs to provide verbal, not written,
feedback in an effort to save time. Clarifying the guidelines and expectations concerning
VRF feedback and providing constructive written feedback in a timely manner would
help set expectations for both staff and Volunteers and reiterate the importance of the
information contained in the reports.

                  We recommend:

                    15. That the post establish, document, and
                        communicate guidelines concerning staff feedback
                        for Volunteer Report Forms.


The impact of medically accommodated Volunteers is inconclusive.

Medical clearance is required for all Peace Corps and Peace Corps Response applicants.
At times, the agency may determine that an applicant has a medical condition that
restricts their placement. These medical accommodations might dictate the country
where the Volunteer can serve, and post staff might be required to place them in a site
that is in close proximity to certain medical facilities.


13
   At the time of the evaluation fieldwork, staff was still receiving and providing feedback on first-year
Volunteers’ first VRF reports. In May 2010 these Volunteers swore in, and their first VRF reports were
due on September 15, 2010.
14
   This is based on ratings from six Volunteers. The other interviewed Volunteers had not received
feedback and therefore could not comment on its quality.


Final Program Evaluation Report: Peace Corps/Jamaica                                                         23
In 2009, regional staff and previous post leadership raised concerns to management in the
Office of Volunteer Support (VS) about the impact that the high number of medical
accommodations had on the post. Of particular concern was the perception that the post
received a high number of Volunteers with a mental health accommodation. The
previous CD requested that the agency reduce the number of Volunteers with a mental
health accommodation sent to Jamaica. Not only was there a concern that these
Volunteers required more time and effort from the PCMOs and other staff, but staff were
also concerned that serving in an culturally aggressive, high-crime country like Jamaica
would negatively impact the Volunteer’s mental health and overall productivity.

In response to these concerns, the VS analyzed the impact that a Volunteer’s
accommodation status had on average length of service at the post. Using data for
Volunteers in training groups 76, 77, and 78, management concluded that less than 15
percent of the Volunteers had a mental health accommodation. 15 However, the analysis
also revealed that gender and mental health accommodation status impacted length of
service. Specific findings were as follows:

     •   Volunteers in Jamaica with any mental health accommodation served
         approximately 60 fewer days, on average.
     •   Female Volunteers in Jamaica, regardless of their accommodation status, served
         113 fewer days, on average.
     •   Female Volunteers with any mental health accommodation served approximately
         215 fewer days, on average.

At the time of the evaluation, 45 percent of the Volunteers serving in Jamaica were
medically accommodated, up almost 15 percent from when the analysis was conducted
for groups 76, 77, and 78. 16 Although staff reported that some Volunteers seek support
from PCMOs and other staff more frequently than other Volunteers, it was unclear what
impact, if any, their accommodation status had on post resources or the Volunteer’s
ability to serve. Medical information, including accommodation status, is confidential
and available only on a “need to know” basis. With the exception of the PCMOs, most
staff members did not know which Volunteers were accommodated and therefore could
not determine whether their status impacted their well-being and ability to serve
productively. Medical staff reported that they had adequate resources to support
Volunteers. Staff also stated that it was important to make sure the post had adequate
resources to help Volunteers with their mental health needs, regardless of accommodation
status, due to the challenges of serving in Jamaica. Without additional data, it is difficult
to determine whether the agency needs to adjust the number of medically accommodated
Volunteers placed in Jamaica or provide additional resources to the post.


15
   Groups 76, 77, and 78 were selected for analysis because they had already completed their 27 months of
service.
16
   31.4 percent of the Volunteers in groups 76, 77, and 78 were medically accommodated compared to 45
percent of the Volunteers who were serving at the time of the evaluation. The Office of Volunteer support
did not have global data so it was not possible to compare number of medically accommodated Volunteers
in PC/Jamaica to other posts.


Final Program Evaluation Report: Peace Corps/Jamaica                                                   24
PC/Jamaica operates an effective Volunteer safety and security support system.

The Peace Corps asserts that safety and security of Volunteers is the agency’s highest
priority. Each post has a SSC to help the post implement the agency’s primary safety and
security policy, MS 270. Despite being a high crime environment in terms of crime
affecting the larger Jamaican population, the number of Volunteer crime incidences in
Jamaica is low. This can be attributed to the fact that the post has a high performing
SSC; staff and Volunteers are prepared to keep themselves safe and take action in the
event of an emergency; and the post responds well to Volunteer crimes.

The post’s Volunteer safety and security support is a notably positive aspect of its
operations. The post has a high-performing SSC, and the office of Safety and Security
presented her with an award for outstanding service in August 2010. The SSC makes
regular visits to Volunteer sites, and several Volunteers stated that she checked the
adequacy of their emergency supplies when visiting them. Volunteers are comfortable
approaching the SSC, and they have confidence that their confidentiality will be
maintained.

Volunteers and staff are also well-prepared for emergencies. Volunteers stated that the
SSC effectively communicated the country’s security risks to prepare them for the
dangers they might face. The SSC required Volunteers to complete a personal security
plan so that they understood how they should respond if there was an emergency at their
site. The EAP was tested in accordance with MS 270, and staff members received annual
training on their EAP response roles. The SSC provided Volunteers with an EAP
brochure that contained all of the important information and was small enough for
Volunteers to carry with them. The Volunteers we interviewed had copies of the EAP,
and all of them correctly identified their consolidation point.

If a crime does occur, the post is prepared to respond. All of the interviewed Volunteers
who had experienced a crime reported that it was handled well. The post has an effective
Duty Officer system to ensure that a staff member is always available to respond to
incidences. OIG made two test calls to the duty officer phone number outside of business
hours. Both calls were answered immediately by the duty officer.

Crime notification to the Embassy’s Regional Security Officer (RSO) was one area for
improvement. The RSO was not receiving notifications from the Crime Incident
Reporting System (CIRS) due to difficulties with the State Department email system.
The SSC was forwarding CIRS reports to the RSO until the situation was resolved.

As a result of the post’s strong safety and security support, the number of Volunteer
incidences is relatively low. According to documentation from the Office of Safety and
Security, the post has “implemented effective security protocols that have resulted in a 50
percent reduction in crimes against Volunteers in the past 5 years, in spite of a steady
increase in the national crime rate during that time.” OIG commends the post and
Volunteers for their strong focus on this critical aspect of post operations.




Final Program Evaluation Report: Peace Corps/Jamaica                                    25
TRAINING

An important objective of the post evaluation is to answer the question, “Does training
prepare Volunteers for Peace Corps service?” To answer this question we considered
such factors as:

   •    training adequacy;
   •    planning and development of the training life cycle;
   •    staffing and related budget.

In reviewing the post’s process for planning and developing training, OIG found no
significant areas of concern that would warrant action by the post. The post uses an
inclusive process to plan its Volunteer training programs. Post staff at all levels who
represent multiple units participates in planning and delivering Volunteer training.

Post staff also reported that it has adequate staffing resources to deliver Volunteer
training. The post is able to find qualified part-time staff to assist with language and
culture training during PST, and Volunteers stated that the high quality of the post’s
language and cross-culture trainers enhanced PST. The post is also changing its
organizational structure, which will enable programming staff to have a more structured
role in the development and delivery of Volunteer training.

Technical training does not adequately prepare Volunteers for their jobs.

Volunteers at the post participate in several training programs throughout their service,
including PST, early service conference (ESC), and in-service training (IST). We asked
Volunteers to rate the effectiveness of these trainings and found that training is generally
effective, but improvements need to be made in PST technical training. This confirms
data from the 2010 AVS in which Volunteers rated PST technical training lower than the
global average. Only 52 percent of Volunteers in Jamaica were satisfied with technical
training compared to 74 percent globally.

                Table 3: Volunteer Perceptions of Training Effectiveness
                             Ineffective (1) /    Moderate (3) /
                                                                     Average
                Area         Below average Above average (4)
                                                                      Rating
                                   (2)         / Very effective (5)
        PST:
          Languagea                        12%            88%                4.3
          Culturea                          6%            94%                4.2
          Safety/Securitya                  0%            100%               4.8
          Medical/Healthb                   7%            93%                4.0
          Technicalb                       53%            47%                2.3
        ESCb                               27%            73%                3.1
        ISTc                               33%            67%                3.0
       Source: OIG Volunteer Interviews.



Final Program Evaluation Report: Peace Corps/Jamaica                                      26
      a
       N = 16, bN = 15, cN = 6


MS 201 “Eligibility and Standards for Peace Corps Volunteer Service” states that a
trainee must demonstrate technical competence, which is defined as “proficiency in the
technical skills needed to carry out the assignment,” by the end of training. According to
the post’s IPBS for FY 2011-2013, the post changed its PST model for Group 81 to
emphasize technical training. This change included a move from site-based training,
where trainees received site-specific training from their partner agencies, to sector-based
hub training, where trainees gathered in sector-specific groups to receive specialized
technical training. The post also recruited technical experts to oversee PST technical
curricula and included practicum segments so trainees could get hands-on experience
during PST.

These changes appear to have resulted in improvements. Volunteers in the most recent
input group rated their technical training higher than Volunteers in the previous groups.

          Table 4: Volunteer Perceptions of Technical Training Effectiveness (by Input
                                            Group)
                                Percent of Volunteers
           Volunteer Group        Rating “Average           Average Rating
                               Effectiveness” or Better
           Group 79 & 80a                14%                      1.6
                    b
           Group 81                      75%                      2.9
           Source: OIG Volunteer Interviews.
           a
             N = 7, bN = 8


The improved feedback from Group 81 Volunteers reflects the positive impact of the PST
technical training changes. However, Volunteer feedback reveals that technical training
is still inadequate in preparing them for their jobs. Some Volunteers stated that the
technical training they received did not pertain to their primary assignment once they
arrived at site. In addition, Volunteers requested more hands-on practice, and Volunteers
working in schools stated that they needed more skills related to literacy, phonics, and
teaching both students and teachers.

There is a lot of variety in Volunteer work assignments at the post because of the breadth
of the post’s project plans. This variety makes it difficult for the post to provide technical
training that is specialized to each Volunteer’s assignment. Furthermore, the post did not
review the training design and evaluation (TDE) process after making significant
programming changes that included the elimination of the health sector and a greater
focus on literacy and numeracy in the youth as promise project. Peace Corps’
Programming and Training Guidance “Training Design and Evaluation” states:

          TDE ensures that trainees and Volunteers have the knowledge, skills, and attitudes that
          are essential for success in their development work and for integration into their
          communities…By using the TDE process, posts can identify and train the knowledge,
          skills and attitudes required of Volunteers to do their jobs effectively.




Final Program Evaluation Report: Peace Corps/Jamaica                                                27
Reviewing the TDE process and providing adequate time to implement the changes
before the next PST should help improve technical training.

              We recommend:

                16. That the post work with the Office of Overseas
                    Programming and Training Support to review the
                    training design and evaluation process and make
                    necessary changes to technical training before the
                    next pre-service training.




Final Program Evaluation Report: Peace Corps/Jamaica                             28
             OBJECTIVE, SCOPE, AND METHODOLOGY

The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps OIG was established under the
Inspector General Act of 1978 and is an independent entity within the Peace Corps. The
Inspector General (IG) is under the general supervision of the Peace Corps Director and
reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with
independent evaluations of all management and operations of the Peace Corps, including
overseas posts and domestic offices. OIG evaluators identify best practices and
recommend program improvements to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of the post on July 27,
2010. For post evaluations, we use the following researchable questions to guide our
work:

•   To what extent has post developed and implemented programs to increase host
    country communities’ capacity?
•   Does training prepare Volunteers for Peace Corps service?
•   Has the post provided adequate support and oversight to Volunteers?
•   Are post resources and agency support effectively aligned with the post’s mission and
    agency priorities?
•   Is the post able to adequately administer the PEPFAR program, support Volunteers,
    and meet its PEPFAR objectives?

The evaluator conducted the preliminary research portion of the evaluation July 28-
September 24, 2010. This research included review of agency documents provided by
headquarters and post staff; interviews with management and staff representing the IAP
region, OPATS, OAR, PCR, VS; and inquiries to the offices of Safety and Security,
OSIRP, the Office of Private Sector Initiatives, and the Office of Volunteer Recruitment
and Selection. The evaluator also reviewed submissions related to the post that were
made to the OIG Hotline in April 2010.

In-country fieldwork occurred from September 27-October 15, 2010, and included
interviews with post senior staff in charge of programming, training, and support; the
U.S. Chargé d’Affaires; the embassy regional security officer; representatives from
USAID, and host country government ministry officials. In addition, we interviewed a
stratified judgmental sample of 20 Volunteers (25 percent of Volunteers serving at the
time of our visit) based on their length of service, site location, project focus, gender, age,
ethnicity, and marital status. One additional Volunteer requested a meeting with OIG,
which was granted. The evaluator also interviewed the PCVL.



Final Program Evaluation Report: Peace Corps/Jamaica                                        29
This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
(formerly the President’s Council on Integrity and Efficiency). The evidence, findings,
and recommendations provided in this report have been reviewed by agency stakeholders
affected by this review.



                         INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 20 Volunteers, 12 staff
members in-country, and 35 representatives from Peace Corps headquarters in
Washington D.C., the U.S. Embassy in Jamaica, and key project partners and ministry
officials. Volunteer interviews were conducted using a standardized interview
questionnaire, and Volunteers were asked to rate many items on a five-point scale (1 =
not effective, 3 = average effectiveness, 5 = very effective). The analysis of these ratings
provided a quantitative supplement to Volunteers’ comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, all 20 Volunteer interviews occurred at the Volunteers’ homes,
and we inspected these homes using post-defined site selection criteria. The period of
review for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire
Volunteer population in Jamaica at the time fieldwork was conducted; the Volunteer
sample was selected to reflect these demographics.




Final Program Evaluation Report: Peace Corps/Jamaica                                      30
                             Table 5: Volunteer Demographic Data
                           Project 17             Percentage of Volunteers
                   Youth As Promise                        44%
                   Green Initiative                        39%
                   Peace Corps Response:
                   Sexual and Reproductive                     6%
                   Health
                   Youth and Sports                        10%
                           Gender                 Percentage of Volunteers
                   Female                                  50%
                   Male                                    50%
                             Age                  Percentage of Volunteers
                   25 or younger                           41%
                   26-29                                   23%
                   30-49                                   18%
                   50 and over                             19%
                         Source: August 2010 PC/Jamaica Volunteer roster.
                         Note: Percentages may not total 100% due to rounding.

At the time of our field visit, the post had 23 staff positions. 18 The post also employs
temporary staff/contractors to assist with PST. Given the time of our visit, these
temporary positions were not staffed. We interviewed 12 staff members.




17
   Because the health sector was closed in 2010, all health Volunteers were re-assigned to youth as promise
or green initiative.
18
   The post was implementing some organizational changes that would impact staffing. Several vacancy
announcements were posted during fieldwork.


Final Program Evaluation Report: Peace Corps/Jamaica                                                    31
            Table 6: Interviews Conducted with PC/Jamaica Staff Members
                        Position                      Status     Interviewed
        Country Director                          USDH                X
        Administrative Officer                    FSN                 X
        Programming and Training Officer          USDH                X
        APCD/Environment                          PSC                 X
        APCD/Youth As Promise                     PSC                 X
        Programming and Training Assistant (2)    PSC                 X
        Peace Corps Response Coordinator          PSC                 X
        Training Director                         PSC                 X
        Safety and Security Coordinator           PSC                 X
        PCMO (2)                                  PSC                 X
        Medical Administrative Assistant          PSC
        Executive Secretary                       PSC
        Receptionist                              PSC
        Administrative Assistant (2)              1 PSC / 1 FSN
        Administrative Assistant/Property Manager PSC
        Cashier                                   FSN
        Information Technology Specialist         PSC
        General Services Manager                  PSC
        Driver/Messenger                          PSC
        Landscaper/Office Attendant               PSC
      Data as of October 15, 2010.

Additional interviews with 35 people were conducted during the preliminary research
phase of the evaluation, in-country fieldwork, and follow-up work upon return to Peace
Corps headquarters in Washington, D.C.

        Table 7: Interviews Conducted with PC/Headquarters Staff, Embassy Officials
                                  and Key Ministry Officials
                        Position                           Organization
     Regional Director                             PC/Headquarters/IAP Region
     Chief of Operations                           PC/Headquarters/IAP Region
     Chief Administrative Officer                  PC/Headquarters/IAP Region
     Acting Chief of Programming and Training      PC/Headquarters/IAP Region
     Country Desk Officer                          PC/Headquarters/IAP Region
     Country Desk Assistant                        PC/Headquarters/IAP Region
     Safety and Security Desk Officer              PC/Headquarters/IAP Region
     Chief, Field Assistance Division              PC/Headquarters/OPATS
     Language and Cross Cultural Specialist        PC/Headquarters/OPATS
     Program and Training Specialist (Env/Ag)      PC/Headquarters/OPATS
     Programming & Training Specialist (Youth      PC/Headquarters/OPATS
     Development)
     Programming & Training Specialist (Health) PC/Headquarters/OPATS
     Programming and Training Advisor              PC/Headquarters/OAR


Final Program Evaluation Report: Peace Corps/Jamaica                                     32
                        Position                               Organization
     Administrative Specialist                         PC/Headquarters/OAR
     Program Specialist                                PC/Headquarters/OAR
     Chief of Operations                               PC/Headquarters/PCR
     Program and Operations Specialist                 PC/Headquarters/PCR
     Recruitment and Placement Specialist              PC/Headquarters/PCR
     Associate Director                                PC/Headquarters/VS
     Director, Office of Medical Services              PC/Headquarters/VS
     Special Services Officer                          PC/Headquarters/VS
     SPA Program Specialist                            PC/Headquarters/OPATS
     PCPP Program Specialist (IAP/EMA)                 PC/Headquarters/OPSI
     Chargé d’Affaires                                 U.S. Embassy in Jamaica
     Regional Security Officer                         U.S. Embassy in Jamaica
     HIV/AIDS Technical Advisor                        U.S. Agency for International
                                                       Development
     Supervisory Program Officer                       U.S. Agency for International
                                                       Development
     Chief Education Officer                           Ministry of Education
     Education Assistant                               Ministry of Education
     Senior Director – Community Development,          Ministry of Youth, Sports, and
     Youth and Sports                                  Culture
     Consultant in charge of marketing                 Ministry of Agriculture
     Deputy Executive Director (Interim)               Rural Agricultural
                                                       Development Authority
     Board Secretary                                   Rural Agricultural
                                                       Development Authority
     Director of Projects                              Rural Agricultural
                                                       Development Authority
     Parish Agricultural Manager, St. Catherine        Rural Agricultural
                                                       Development Authority
       Data as of October 2010.




Final Program Evaluation Report: Peace Corps/Jamaica                                    33
                     LIST OF RECOMMENDATIONS

WE RECOMMEND:

   1. That the post work with the region, the Office of Programming and
      Training Support, and other specialists as needed, to review and
      finalize its project plans.

   2. That the Office of Global Operations, in consultation with
      appropriate offices, develop and communicate the guidelines to
      posts for discontinuing a project or sector, including the process
      and criteria used to make such decisions, and the process and
      timeline to communicate decisions to staff, project partners, and
      Volunteers.

   3. That the post work with ministry and project partners to clarify and
      establish appropriate expectations regarding Volunteer roles as
      grant writers and other sources of income, and that it address this
      clearly during site development.

   4. That the post review current site development processes and staff
      roles and implement an improved site development process.

   5. That the post work with the Peace Corps Response office and the
      region to develop and implement a manageable Peace Corps
      Response strategy, improve position descriptions for Response
      Volunteers, and assign Response Volunteers to meaningful short-
      term assignments.

   6. That the post develop and implement a plan to engage in regular,
      formal meetings with host country government and partner
      agencies.

   7. That the post work with the Office of AIDS Relief and the region
      to develop and implement a manageable President’s Emergency
      Plan for AIDS Relief strategy.

   8. That the post, in conjunction with the Office of Programming and
      Training Support, if needed, integrate HIV/AIDS activities into
      related project plans.

   9. That the post and region develop and implement a plan to address
      the office’s morale and staff communication problems.



Final Program Evaluation Report: Peace Corps/Jamaica                         34
   10. That the post develop a position description and responsibilities
       that assign the Peace Corps Volunteer leader to a Volunteer
       activity with a counterpart.

   11. That the post conduct annual and mid-year performance reviews
       for all staff members in accordance with Peace Corps policy.

   12. That the post establish, document, and communicate to staff and
       Volunteers the expectations for staff-Volunteer communications
       and requirements for discretion and confidentiality.

   13. That the post align Volunteer and staff expectations regarding site
       visits by clarifying and documenting the guidelines and
       communicating them to staff and Volunteers.

   14. That programming staff notify Volunteers, counterparts, and
       project partners in advance of site visits.

   15. That the post establish, document, and communicate guidelines
       concerning staff feedback for Volunteer Report Forms.

   16. That the post work with the Office of Overseas Programming and
       Training Support to review the training design and evaluation
       process and make necessary changes to technical training before
       the next pre-service training.




Final Program Evaluation Report: Peace Corps/Jamaica                         35
APPENDIX A



          THE TEN PEACE CORPS PROJECT CRITERIA

According to Peace Corps Programming and Training Guidance “Introduction and
Overview,” all Peace Corps projects are designed to meet the following criteria:


 Peace Corps Project Criteria
 A Strong Project …
 1. Increases local capacity in a demonstrable way
 2. Strives to address expressed priorities of those who have limited access to resources and
 opportunities.
 3. Seeks sustainable results that complement other development efforts.
 4. Has local participants as partners in designing, implementing, monitoring and evaluating
 the project.
 5. Addresses Peace Corps initiatives and cross-cutting themes as appropriate, including
 analyzing gender relationships and promoting women’s participation to increase their status
 and opportunities.
 6. Places Volunteers where they engage with those they serve and their skills match locally
 identified needs.
 7. Does not displace qualified and available workers with Volunteers.
 8. Uses the types and numbers of Volunteers that are consistent with available applicants.
 9. Has local Peace Corps staff and resources to train and support Volunteers to complete their
 assignments successfully.
 10. Has host government agencies, civil society organizations, and communities as partners
 who can support the project and the Volunteers.
 11. Is continuously evolving.




Final Program Evaluation Report: Peace Corps/Jamaica                                            36
APPENDIX B



                    MANAGEMENT’S RESPONSE TO
                     THE PRELIMINARY REPORT




Final Program Evaluation Report: Peace Corps/Jamaica   37
APPENDIX C


                               OIG COMMENTS
Management concurred with all 16 recommendations. Based on the documentation
provided, we closed five recommendations: number(s) 5, 6, 9, 10, and 11. In its
response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the agency has taken these actions or that we
have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct
a follow-up review to confirm that action has been taken and to evaluate the impact.

Eleven recommendations, number(s) 1, 2, 3, 4, 7, 8, 12, 13, 14, 15, and 16, remain open.
OIG will review and consider closing recommendations 1, 2, 4, 8, and 16 when the
documentation reflected in the agency’s response to the preliminary report is received.
For recommendations 3, 7, 12, 13, 14, and 15, additional documentation is requested.
These recommendations remain open pending confirmation from the chief compliance
officer that the documentation reflected in OIG Analysis below is received.

3. That the post work with ministry and project partners to clarify and establish
appropriate expectations regarding Volunteer roles as grant writers and other
sources of income and that it address this clearly during site development.

       Concur: Post agrees that clearer expectations can be set regarding the role of
       PCVs in development and grant writing with project partners. Post's clarification
       of the role of the PCV will be documented in the Site Development process; site
       screening form and the Site Development Talking Points. It is also documented in
       the Supervisors' Manual, Volunteer Handbook, and MOU/Agreement to clarify
       roles

       Documents Submitted:
          • (Draft) Grant writing clarification for inclusion in the 2011 Volunteer
            Handbook;
          • Site Development Talking Points
          • Site Evaluation Form
          • Site Screening Form

       Documents to be Submitted/Date:
          • Finalized PCV Handbook/May 31, 2011

       Status and Timeline for Completion: May 31, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await the finalized Volunteer handbook. Please also submit



Final Program Evaluation Report: Peace Corps/Jamaica                                  46
APPENDIX C


       the Supervisors’ Manual and sample MOUs/Agreements that reflect the
       Volunteer’s role in grant writing activities.


7. That the posts work with the Office of AIDS Relief and the region to develop and
implement a manageable President's Emergency Plan for AIDS Relief strategy.

       Concur: Post's FY10 PEPFAR Plan was developed with assistance from the
       OAR; this plan has been approved. Post is working with the OAR on the FY11
       Plan.

       Documents submitted:
       OAR Approval Memo for FY 10

       Documents to be submitted:
       OAR Approval memo for FY11 IP & Budget.

       Status and Timeline for Completion: March 31, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await the OAR approval memo for FY11 implementation
       plan and budget. The FY10 document received reflected OGAC’s approval of
       Caribbean FY10 Regional Operational Plan. Please also submit the OAR
       approval memo for the FY10 implementation plan and budget.


12. That the posts establish, document, and communicate to staff and Volunteers the
expectations for staff-Volunteer communications and requirements for discretion
and confidentiality.

       Concur: CD has issued a statement to staff and volunteers concerning discretion
       and confidentiality. This statement will be included in the 2011 PCV Handbook
       under Volunteer Support. Additionally, the Country Director will deliver the
       Global Ops mandated PCV confidentiality training to all staff on February 28,
       2011.

       Documents Submitted:
          • Staff and PCV Communications regarding confidentiality
          • Email from Global Ops to Posts to conduct Confidentiality Training

       Documents to be Submitted/Date:
          • Finalized PCV Handbook/ May 31, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await the finalized Volunteer handbook. Please also submit


Final Program Evaluation Report: Peace Corps/Jamaica                                 47
APPENDIX C


       documentation that demonstrates how this information was communicated to staff
       and documented for staff’s ongoing use.


13. That the posts align Volunteer and staff expectations regarding site visits by
clarifying and documenting the guidelines and communicating them to staff and
Volunteers.

       Concur: Post has added a section in the Volunteer handbook outlining
       expectations for Volunteer Support including a site visit matrix to be included in
       the Volunteer Handbook outlining expectations of site visits by all staff. The PCV
       Handbook is currently in draft status and will be finalized May 31, 2011.

       Documents Submitted:
          • Site Visit Matrix - draft

       Documents to be Submitted/Date:
          • Finalized PCV Handbook no later than May 31, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await the finalized Volunteer handbook. Please also submit
       documentation that demonstrates how the site visit guidelines were communicated
       to staff and documented for staff’s ongoing use.


14. That programming staff notify Volunteers, counterparts, and project partners in
advance of site visits.

       Concur: Post has incorporated notification guidelines in the Volunteer Support
       section and Site Visit Matrix of the Volunteer Handbook to notify PCVs and
       Project Partners at least one week in advance of scheduled site visits. The PCV
       Handbook is currently in draft status and will be finalized May 31, 2011.

       Documents Submitted:
          • Site Visit Matrix - draft

       Documents to be Submitted/Date:
          • Finalized PCV Handbook/ May 31, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await the finalized Volunteer handbook. Please also submit
       documentation that demonstrates how the site visit notification deadlines have
       been communicated to staff and documented for staff’s ongoing use.




Final Program Evaluation Report: Peace Corps/Jamaica                                     48
APPENDIX C


15. That the post establish, document, and communicate guidelines concerning staff
feedback for Volunteer Report Forms.

       Concur: Post has established criteria for Volunteer Reporting Form feedback in
       the Volunteer Support section of the PCV Handbook.

       Documents Submitted:
       Trimester Report Section in PCV Handbook

       Documents to be Submitted/Date:
       Finalized PCV Handbook NLT May 31, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await the finalized Volunteer handbook. Please also submit
       documentation that demonstrates how the Volunteer Report Form feedback
       guidelines have been communicated to staff and documented for staff’s ongoing
       use.




Final Program Evaluation Report: Peace Corps/Jamaica                                49
APPENDIX D


              PROGRAM EVALUATION COMPLETION
                    AND OIG CONTACT

OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Jim O’Keefe,
                              Assistant Inspector General for Evaluations, at
                              jokeefe@peacecorps.gov, or call (202) 692-2904.




                              Jim O’Keefe
                              Assistant Inspector General/Evaluations



STAFF                         This program evaluation was conducted under the
                              direction of Jim O’Keefe, Assistant Inspector General for
ACKNOWLEDGEMENTS
                              Evaluations, and by Senior Evaluator Heather Robinson.
                              Additional contributions were made by Reuben Marshall
                              and Lisa Chesnel.




Final Program Evaluation Report: Peace Corps/Jamaica                                   50
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT
  Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
  general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and wrongdoing related to Peace
 Corps operations domestically or abroad. Using the OIG contact
    resources below, you can report information or allegations
          confidentially or choose to remain anonymous.




                               Call:
                   Main Office: 202.692.2900
          24-Hour Hotline: 800.233.5874 or 202.692.2915

                              Write:
                            Peace Corps
                      Attn: Inspector General
                        1111 20th St., NW
                      Washington, DC 20526

                                Or

                           Peace Corps
                     Attn: Inspector General
                        P.O. Box 57129
                   Washington, DC 20037-7129

                            Email:
                       OIG@peacecorps.gov

                           Website:
                     www.peacecorps.gov/OIG
